  ""~AMTRAK

                                                                               ~
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                                The Inspector General


Memorandum
To:        Jeffrey R. Moreland, Chairman, Audit and Finance Committee,
            Amtrak Board of Directors
           William Auve, Interim Chief Fina~c~l ~~cer

From:      Ted Alves, Inspector General    ~
Date:      April1B, 2013

Subject:   Monitoring the Work of Amtrak's IPA Conducting the FY 2013 Financial Statement
           Audit and Single Audit (Projects 007-2013 and 00B-2013)

This is to inform you that the Office of Inspector General (OIG) is initiating an
engagement to monitor the Fiscal Year (FY) 2013 Amtrak Consolidated Financial
Statement Audit (Project 007-2013) and Single Audit (Project 00B-2013). We are in the
third year of implementing our plan to monitor the audit work performed by Amtrak's
independent public accountant (IP A) (see Attachment).

The objectives of this engagement are to

(l) determine whether the IP A performed the audit of Amtrak's Consolidated Financial
    Statements in accordance with generally accepted government auditing standards
    issued by the Comptroller General of the United States;
(2) determine whether the IPA performed Amtrak's Single Audit in accordance with
    generally accepted government auditing standards issued by the Comptroller
    General of the United States and Office of Management and Budget (OMB) Circular
    A-133, Audits of States, Local Governments, and Non-Profit Organizations; and
(3) follow up on prior recommendations made to the Audit and Finance Committee and
    Chief Financial Officer (CFO) to improve Amtrak's oversight of the IPA.

Our monitoring procedures are designed to provide the Board of Directors, Amtrak
management, and external stakeholders with assurance that the IPA performed high-
quality audits that meet professional standards. At the conclusion of our work, we will
provide you with two letters that will cite whether we found any material instances of
ATTACHMENT


       Amtrak OIG's Plan to Review the Independent Public Accountant's Work


This plan describes the Office ofInspector General's (OIG) plan related to monitoring
Amtrak audits performed by an independent public accountant (IPA i ). OIG's role is
designed to help the Board of Directors carryout fiduciary responsibilities and to meet the
OIG's responsibilities to assure that any work performed by non-federal auditors
complies with the standards established by the Comptroller General.


Introduction and Background
The Board and OIG have important responsibilities with respect to the Company's
financial reporting processes, internal controls, and annual audits of its financial
statements.

The Board, through its Audit and Finance Committee, is responsible for overseeing the
Company's financial reporting processes, internal controls, and annual audit of its
financial statements by an IP A. At times, the Board makes decisions regarding these
same matters. The Company's Finance Department executes the decisions of the Board
and Committee with respect to the Company's financial reporting processes, internal
controls, and annual audit of its financial statements.

Under the Inspector General Act of 1978, as amended, Inspectors General are required to
(i) establish guidelines for determining when a Federal entity may use a non-federal
auditor and (ii) ensure that any non-federal auditor conducts its work in accordance with
auditing standards established by the Comptroller General of the United States. The IPA
that audits Amtrak's financial statements is considered a non-federal auditor. While
practices vary, most Federal entities involve their OIG in a significant manner in
overseeing and ensuring that the work performed by non-federal auditors in annual
financial statement audits is conducted in accordance with applicable standards.

Our office has made significant changes over the past year to ensure that we operate
under best practices consistent with the spirit as well as the letter of the IG Act. To reach
even closer to becoming a model IG, additional changes will be made over the next
several years. We plan to ultimately assume the role of monitoring all audits performed
by non-federal auditors. Our monitoring will provide reliable, timely, and consistent



llPA (Independent Public Accountant) - An accountant who is licensed or works for a firm that is licensed in the
state or other political jurisdiction in which it operates its professional practice, and who complies with the applicable
provisions of the public accountancy law and rules of the jurisdiction in which the audit is being conducted.
                                                                  DIG Oversight ofIndependent Public Accountants
                                                                                                 March 15, 2011
                                                                                                      Page 2 of5


financial information that can be used by the Board and the Company to make significant
decisions regarding the Company's operations.

Purpose and Scope
Consistent with Amtrak OIG's commitment to comply with the specific duties and
responsibilities mandated by the IG Act and to meet the standards established under
generally accepted government auditing standards, OIG will monitor all audits performed
by non-federal auditors. Our monitoring of the work performed by the IP A will ensure
that its work complies with standards established by the Comptroller General. OIG will
place particular emphasis and attention on the Company's consolidated financial
statement audits.

This memorandum is applicable to all audit2 work performed by the IPA, as defined in
the scope of work included in its contract to perform audit services, including the audits
of
    • Amtrak's Consolidated Financial Statements;
       •    Passenger Railroad Insurance, Ltd.;
       •    Penn Station Leasing, LLC;
       •    Grant compliance under U.S. Office of Management and Budget (OMB) Circular
            No. A-133, Audits ojStates, Local Governments, and Non-Profit Organizations;
            and
       •    Employee Benefit Plan Audits:
             o Amtrak's Retirement Savings Plan for Agreement Employees,
             o National Railroad Passenger Corporation Retirement Savings Plan (for
               management employees), and
             o Retirement Income Plan for the Employees of National Railroad Passenger
               Corporation.


OIG's Plan to Monitor the IPA
Beginning in this fiscal year and continuing through FY 2013, OIG will implement a
phased plan to monitor the IP A to ensure that IP A audit work complies with applicable
professional standards established by the Comptroller General. We will progressively
increase our monitoring activities through 2013. By 2014, we will have established
policies and procedures that guide our future audits ofIPA's work.

2   Audit - For the purpose of this document, the term audit refers to any engagement performed by a non-federal
auditor that provides an independent assessment of and reasonable assurance, through the expression of an opinion,
over the subject matter for which the IPA is retained. The terms non-federal auditor and IPA mean the same, and are
used interchangeably throughout the document.
                                                                    OIG Oversight ofIndependent Public Accountants
                                                                                                   March 15, 20II
                                                                                                        Page 3 of5




OIG's review is designed to provide the Board and the Company with confirmation that
the IPA is independent and that its work is of high quality and meets professional
standards. Our monitoring activities will comply with the standards prescribed by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE3) and the
Government Accountability Office (GA04) for monitoring the work performed by non-
federal auditors. Our monitoring does not constitute an audit conducted in accordance
with generally accepted government auditing standards and, therefore, is not designed to
enable us to express opinions on the Company's financial statements, conclusions about
the effectiveness of internal controls, or conclusions about the Company's compliance
with laws and regulations related to the financial statements.

The scope of our monitoring activities will include reviews related to (A) selecting the
IPA, (B) performing the audit (by the IP A), (C) administering the IP A contract, and (D)
facilitating the audit process. Our planned role in each of these activities is described
below.


(A)         Selecting the IPA
The IP A selection process is the responsibility of the Board. OIG's review will provide
the Board with independent assurance that its IP A selection process complies with
policies and procedures, applicable laws and regulations, and industry best practices.

During this fiscal year, OIG will perform steps designed to help us understand the IPA
selection process, including solicitation preparation, appointment of the Selection
Committee, technical evaluation, price evaluation, and scoring of proposals.

In FY 2012, if the Board reappoints the IP A, 01G will review the Company's annual
contract renewal process and brief the Board on whether that process complies with
applicable procurement regulations, the Company's policies and procedures, applicable
laws, and industry best practices.

If, in any year, the Board directs the Company to solicit new IPA bids to conduct the
Company's required audits, OIG will assess and brief the Board on the propriety of the
Company's contract solicitation process. We will focus on whether the process is fair,
transparent, and consistent with procurement regulations required by grant agreements,
the Company's policies and procedures, industry best practices, and applicable laws.

3   ClGIE is the authoritative body under which IGs operate. It was formed under the Inspector General Act of 1978, as
amended by the Inspector General Reform Act of 2008, by combining what were formerly known as the President's
Council on Integrity and Efficiency (PClE) and the Executive Council on Integrity and Efficiency (ECIE).

4   GAO is the authoritative body that establishes government auditing standards, commonly referred to as generally
accepted government auditing standards (GAGAS).
                                                   DIG Oversight ofIndependent Public Accountants
                                                                                  March 15,2011
                                                                                       Page 40f5


OIG will notify the Board and the Company of any deficiencies or recommendations for
improvement so that revisions to solicitation documents may be made prior to selecting
the new IPA.


(B)      Performing the Audit (by the IPA)
OIG's objective for reviewing the IPA's performance of the audit is to ensure that the
IP A complies with applicable professional standards, its own quality control policies and
procedures, and its methodology for conducting the audits.

During this fiscal year, we will develop an understanding of the Company's financial
statement audit process, including the financial reporting, consolidation, and information
systems processes. We will also review the Company's audit oversight process to
determine whether its oversight is adequate to ensure that the IP A complies with its
statements of work and professional standards.

We will report to the Board any recommendations to improve the audit oversight and
monitoring processes based on guidance established by CIGIE, GAO, and industry best
practices.

Starting in fiscal year 2012 and in subsequent years, we will continue to review the
financial reporting and audit processes. We will also perform sufficient audit work to
allow us to understand the IP A's audit methodology and internal quality assurance and
quality control policies and procedures. We will further perform procedures prescribed
by CIGIE and GAO for monitoring the work of non-federal auditors, including reviewing
and making judgments in the areas of:

•     evaluating the IPA's independence and objectivity;
•     evaluating the IPA's qualifications;
•     making recommendations with respect to type of reporting;
•     reviewing documentation;
•     performing supplemental testing, if necessary; and
•     discussing key issues with management.

Our work will provide the Board with independent assurance of the IPA's application of
professional auditing standards and its quality control policies as they relate to the
Company's consolidated financial statement audit.

As appropriate, we will make recommendations to the Board, the Company, and the IPA
during the course of our monitoring to achieve corrective actions prior to the IP A issuing
the Company's financial statements. Our report, along with the IPA's opinion on the
                                                     OIG Oversight of Independent Public Accountants
                                                                                     March 15,2011
                                                                                          Page 50f5


Compa..'lY's financial statements, will be available to the Board, the COmplli"'1Y, the
Congress, a..l1d the public,

We will not express an opinion on the Company's financial statements, conclusions about
the effectiveness of internal controls, or conclusions about compliance with laws and
regulations, as they relate to the Company's financial statements. We will, however,
issue a trfu'1smittal memora.'ldum attached to the issued IP A report( s) that will cite
whether we found any material instances of the IPA's noncomplia.'lce with standards
established by the Comptroller General.

Starting in fiscal year 2013 and in every year thereafter, we will determine whether to
apply the same monitoring procedures described above to other audits performed by the
IP A. These audits include the subsidiary fina..'lcial statement audits, the OMB A-133
audit, and employee benefit plan audits.


(C) Administering the IPA Contract
Administering the IPA contract involves, among other things, assuming the role of the
contracting officer's technical representative, including approving payments to the IPA
and ensuring that the IPA complies        contract terms.

We do not plan to perform activities related to contract administration. However, we will
review the Company's contract administration and contract oversight as described above
ili'1der Performing the Audit (by the IPA) section.

We win request that management provide us with written notification of any dispute
between Finance and the IPA regarding accounting issues or contract performance.


(D) Facilitating the Audit Process
The ultimate goal of facilitating the audit process is to provide the IP A with what it needs
when it needs it, enabling it to perform the necessary audit procedures while meeting
performance milestones and targeted completion dates"

We do not plan to perform activities related to facilitating the audit. However,
facilitating the audit process is within the scope of oaf review of the Company's audit
oversight, as described above lLllder Performing the Audit (by the IPA) section. We will
be actively involved in assisting the Board and the Company in resolving any issues with
the IPA.
